              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Protective Force Performance Test
Improprieties




DOE/IG-0636                               January 2004
PROTECTIVE FORCE PERFORMANCE TEST IMPROPRIETIES



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objectives        1

              Observations and Conclusions       3


              DETAILS OF FINDINGS

              June 26, 2003, Performance Test    4

              Performance Testing                5

              Performance Measurement            8


              RECOMMENDATIONS                    9


              MANAGEMENT COMMENTS                9


              INSPECTOR COMMENTS                 9


              APPENDICES

              A. Scope and Methodology          10

              B. Management Comments            11
Overview

INTRODUCTION     The Department of Energy’s (DOE’s) Y-12 National Security
AND OBJECTIVES   Complex in Oak Ridge, Tennessee, which is a component of the
                 National Nuclear Security Administration (NNSA), is an integral
                 part of the nuclear weapons complex. The Y-12 mission includes
                 the production of hardware to support nuclear weapon stockpile
                 certification; the precision manufacturing of unique nuclear
                 weapons components; weapon dismantlement, storage, and
                 evaluation; and enriched uranium material warehousing and
                 management, including overseeing the secure management and
                 storage of special nuclear materials. These activities necessitate
                 that the site have a protective force capable of responding to
                 potential incidents such as a terrorist attack.

                 As part of the security planning process, Department sites identify
                 potential threats and develop plans for addressing them, including
                 protective force response. One of the key tools in this process is
                 protective force performance testing, which is used to determine
                 that the security features of a system are implemented as designed
                 and are adequate for the proposed environment. Protective force
                 performance testing commonly involves live exercises where
                 “responder” protective forces defend against a simulated attack.
                 Performance tests are frequently referred to as force-on-force
                 exercises; however, technically, these constitute just one type of
                 performance test.

                 Because of the high cost of live protective force performance tests,
                 which at Y-12 we were told cost between $50,000 to $85,000 per
                 test, sites use a computer program to simulate protective force
                 responses to various threats. Select simulations are then validated
                 through performance tests. It is DOE policy that performance tests
                 must be used to, among other things, realistically evaluate and
                 verify the effectiveness of protective force programs, identify and
                 provide needed training, and validate implemented improvements.

                 On June 26, 2003, a type of Limited Scope Performance Test,
                 locally identified as a Diagnostic Evaluation Exercise, was
                 conducted at Y-12 to obtain realistic data for developing the Site
                 Safeguards and Security Plan. Computer simulations had
                 predicted that the responder protective forces (those defending the
                 site) would decisively lose two of the four scenarios that comprised
                 the performance test. When the responder protective forces won
                 all four of the scenarios, the Y-12 Site Manager became suspicious
                 that the test may have been compromised. The Manager initiated



Page 1                                             Protective Force Performance
                                                   Test Improprieties
         an inquiry, and concerns surfaced regarding (1) responder
         protective force personnel having had access to the computer
         simulations of the four scenarios prior to the performance test and
         (2) conflicting information over who authorized that access.
         Subsequently, the Y-12 Site Manager requested assistance from
         the Office of Inspector General (OIG) to address these concerns.

         During our inspection, we were provided information that
         inappropriate actions had occurred going back to the mid-1980’s in
         connection with performance tests at the Department’s Oak Ridge
         complex. Several different contractors have held the protective
         force contract during the period in question. These contractors
         have provided security throughout the Oak Ridge complex, which
         includes Y-12, the Oak Ridge National Laboratory, the East
         Tennessee Technology Park, and other Department facilities.

         Based upon this information, we expanded our inspection to
         examine whether there had been a pattern over time of site security
         personnel compromising protective force performance tests. Also,
         pursuant to the Government Performance and Results Act of 1993
         (GPRA), we reviewed relevant performance measurement
         processes applicable to the current Oak Ridge complex security
         contractor, Wackenhut Services, Inc. Wackenhut was awarded the
         security contract in September 1999 and began operations in
         January 2000.




Page 2                                         Introduction and Objectives
OBSERVATIONS AND   Our inspection confirmed the concerns of the Y-12 Site Manager
CONCLUSIONS        regarding the performance test conducted on June 26, 2003. We
                   found that shortly before the test, two participating protective force
                   personnel were permitted to view the computer simulations of the
                   four scenarios. We concluded that this action was improper, since
                   it had the potential to adversely impact the realism of the
                   performance test and its outcome. In short, the test results were
                   tainted and should not, in our judgment, be relied upon.

                   During the inspection, we interviewed over 30 current and former
                   site security police officers (SPOs) and SPO supervisors. We
                   received testimony from several individuals that there has been a
                   pattern of actions by site security personnel over an extended
                   period of time that may have negatively affected the realism and,
                   therefore, the reliability of numerous performance tests at the Oak
                   Ridge complex. Several individuals told us, for example, that
                   controlled (test-sensitive) information was shared with SPOs prior
                   to their participation in a given performance test. These concerns
                   paralleled our findings regarding the June 2003 performance test.
                   When queried as to the nature of the information that had been
                   shared with SPOs in prior years, they provided a number of
                   examples, including the following:

                   •   The specific building and wall to be attacked by the test
                       adversary;

                   •   The specific target of the test adversary; and

                   •   Whether or not a diversionary tactic would be employed by the
                       test adversary.

                   These concerns were expressed by current and former protective
                   force personnel who were in a position to be aware of the facts and
                   circumstances of the prior performance tests. We found their
                   assertions to be credible and compelling. Two protective force
                   contractor employees who were identified as having involvement
                   in these actions denied such activities. We could not find
                   documentary evidence to support or refute the testimonial
                   evidence. However, it was clear that if controlled information was,
                   in fact, disclosed prior to the performance tests, such action would
                   have influenced the reliability of the information used to evaluate
                   the efficacy of the protective force program at the Oak Ridge
                   complex.




Page 3                                              Observations and Conclusions
Details of Findings

JUNE 26, 2003,        The Y-12 Site Office Manager raised concerns with respect to the
PERFORMANCE TEST      performance test conducted on June 26, 2003. We found that two
                      protective force personnel who were to participate as responders in
                      the test were provided information that could have had a direct
                      bearing on the exercise outcome. Specifically, the day before the
                      performance test, the two individuals were allowed to view
                      computer simulations on the Joint Conflict and Tactical Simulation
                      (JCATS) computer program of the four scenarios that would
                      comprise the performance test. (Because of Privacy Act
                      considerations, specific details regarding the events surrounding
                      their viewing of the scenarios have been provided to the Y-12 Site
                      Office Manager under separate cover.) The two individuals denied
                      that the information to which they were given access affected their
                      actions or directions to others who participated in the exercise.
                      However, when we viewed the computer simulations, it became
                      clear that the occurrence of certain specific events would identify
                      which scenario was being initiated by the aggressor force. The
                      order in which the targets would be attacked was controlled
                      information.

                      We asked senior Department and contractor personnel if they
                      believed it was appropriate for the two protective force personnel
                      to view the JCATS simulations prior to the exercise. The Y-12
                      Site Manager said he was aware that members of the protective
                      force participate in computer simulations and have been doing so
                      for several years; however, when the same computer scenarios that
                      will comprise the performance test are viewed by protective force
                      members the day before the exercise, he believed there is a
                      “problem.” A senior official for BWXT Y-12, LLC, the site
                      operating contractor, said that by viewing the JCATS scenarios,
                      the protective force personnel gained such an advantage that it
                      raised concerns about the realism of the exercise results. A senior
                      official for Wackenhut at Oak Ridge said that if Wackenhut
                      supervisors inappropriately received information that other
                      responders did not receive, then there was a possibility that a
                      mishandling of information had occurred.

                      We also consulted with officials outside of Oak Ridge to obtain a
                      broader perspective on this incident. A JCATS expert at Sandia
                      National Laboratories told us that viewing the JCATS simulations
                      prior to an exercise would give away too much information.
                      Similar views were expressed by officials with DOE’s Office of
                      Security and an official in NNSA’s Office of Defense Nuclear
                      Security.



Page 4                                                               Details of Findings
              Based upon the facts and circumstances of this matter, we
              concluded that it was inappropriate for the two Wackenhut
              protective force personnel to have been allowed to view the four
              JCATS scenarios shortly before the performance test. This action
              had the potential to impact the realism and, therefore, the reliability
              of the performance test.

PERFORMANCE   We were provided testimonial information by several current and
TESTING       former protective force personnel that prior to performance tests,
              including those conducted during DOE Headquarters oversight
              reviews, controlled information regarding the performance test and
              specific adversary actions was provided to contractor protective
              force personnel by contractor management. We were told that this
              practice spanned from the mid-1980’s to the present. Several
              individuals advised us that the types of information shared
              included identification of the specific building and wall that would
              be attacked, the target, and whether a diversionary tactic would be
              employed prior to initiation of the primary test assault.

              While we treated this information as credible based on the job
              status and responsibilities of those providing the data, we could not
              find any documentary evidence to support the assertions. The
              individuals themselves acknowledged that they were not aware of
              any documentary evidence of these actions.

              We were also told by a number of individuals that protective force
              members had disabled their Multiple Integrated Laser Engagement
              System (MILES) gear, thus providing the responder force with an
              unfair advantage. MILES gear is used to determine whether the
              exercise participant wearing it has received a simulated fatal gunshot
              and can no longer participate in the exercise. We were told that
              exercise participants had, at various times in the past, removed the
              batteries from the MILES gear; put the batteries in backwards;
              and/or placed material such as tape, mud, or Vaseline over the
              system sensors, so they would not operate properly.

              We learned that new MILES gear purchased at Oak Ridge in 2000
              could help to minimize the occurrence of such actions; however,
              the site is still working on fully implementing its capabilities. For
              example, although the new gear creates computer-generated
              information that can be used to reconstruct the activities of each
              participant to identify if certain types of tampering occurred, such
              reconstruction did not occur for the two tests we reviewed. Even
              after full implementation, some avenues for possible abuse will



Page 5                                                         Details of Findings
         still exist. For example, the sensors can still be obstructed by an
         individual applying a material such as tape, mud, or Vaseline.

         Current or former protective force personnel provided a number of
         examples of improper actions related to prior performance tests:

         •   A protective force responder would be assigned to “tail” the
             aggressors and observe their movements while they were
             touring Y-12 buildings and targets prior to and in preparation
             for an exercise.

         •   Based on specific attack information, trucks or other obstacles
             would be staged at advantageous points to be used as
             barricades and concealment by protective force responders for
             shooting during the exercises.

         •   Training prior to a performance test would focus on the
             specific building to be targeted, and in some instances, an oral
             plan would be created that deviated from the established Y-12
             tactical plan to counter the attack.

         •   Management would identify the best prepared protective force
             personnel and then substitute them for lesser prepared
             personnel who were scheduled to participate in an exercise.

         •   Protective force members who would normally relieve other
             protective force personnel for the purposes of physical training,
             medical appointments, or sick leave would be armed and held
             in “stand-by” to participate in an exercise. This would
             potentially result in six or seven additional available armed
             responders that would not normally have been available during
             a shift.

             During our inspection, we learned that a Wackenhut official
             had recently acknowledged to a senior Department official that,
             as cited above, stand-by personnel had been used in
             performance tests in the past. We were told, however, that
             Wackenhut management had established new procedures to
             address this issue after becoming aware of it sometime in late
             2000 or in 2001. One new procedure, for example, involves
             taking a figurative “snapshot” of the locations of protective
             forces at a given time, and starting an exercise with personnel
             stationed at the locations identified in the “snapshot.”




Page 6                                                   Details of Findings
         •   In an exercise in late 2000 or early 2001, protective force
             management told protective force responders the building and
             target to be attacked, the exact number of adversaries, and the
             location where a diversion would occur. This information was
             reportedly provided about three weeks before the exercise
             occurred, which allowed the protective force to formulate
             special plans on how to counter the adversary.

         •   For the June 26, 2003, exercise discussed in the prior section,
             after the first scenario had been run, word of the order of the
             attacks on the other three scenario targets spread among the
             lower ranked personnel. This was despite the fact that the
             specific order of the targets for this exercise was controlled
             information.

         Although not all of the examples of alleged improper actions that
         were provided to us were attributed to specific individuals, two
         Wackenhut employees were identified as having been involved in
         such activities. When asked about the allegations, these
         individuals said that they had never provided controlled
         information to protective force personnel. They said that
         Wackenhut focused its training on those areas at Oak Ridge that
         present the greatest vulnerabilities, which also are the focus of
         performance tests. They further said that a Wackenhut employee
         who is not aware of these targeted preparations might conclude
         that controlled information had been provided. Regarding the
         MILES gear allegations, one of the individuals said he was aware
         that a number of years ago protective force personnel had tampered
         with the equipment, but when someone was caught doing this,
         corrective actions were taken. The other individual said he had
         heard stories of equipment tampering, but he had no first-hand
         knowledge.

         As noted previously, protective force performance tests must be
         used to realistically evaluate and verify the effectiveness of
         protective force programs. Applicable policies and procedures
         require that the contents of the scenarios to be used in performance
         test exercises be controlled on a need-to-know basis. Although
         none of the individuals we interviewed had documentation to
         support their testimony that inappropriate actions occurred in
         connection with the protective force performance tests conducted
         at the Oak Ridge complex since the mid-1980’s, the extent and
         nature of the testimonial evidence was so compelling that we




Page 7                                                   Details of Findings
              concluded that further action by management is needed if the
              credibility of the performance testing regime is to be maintained.

PERFORMANCE   As part of implementing GPRA, the Department is required to
MEASUREMENT   establish program goals and subsequently measure performance
              against those goals. We found that the contract between
              Wackenhut and DOE contained a performance objective and
              performance measure to address the efficacy of the protective force
              program. The performance objective required Wackenhut to
              execute a day-to-day protective services program that achieves the
              required level of protection, and the performance measure requires
              that optimum protective services support is provided in concert
              with site-specific needs. There is a Performance Evaluation Plan
              that is used for determining Wackenhut’s award fee, and it
              establishes the criteria for Wackenhut to receive award fees.

              We noted that in order to receive all fees that have been otherwise
              earned, Wackenhut must meet all DOE regulations. Given this
              performance standard and based on the information developed
              during the inspection, we believe that the results of the OIG review
              should be considered when DOE officials evaluate Wackenhut’s
              contractual performance and award fee.

              Also, our review of the test process at Oak Ridge disclosed that in
              addition to participating in the actual performance tests as the
              facility responder force, Wackenhut personnel also participated in
              the detailed planning and development of the tests. We believe
              that DOE officials should examine the extent to which a site
              protective force contractor should be involved in both these aspects
              of performance testing. Specifically, we believe that the
              Department should implement additional “firewalls” (controls) to
              ensure that responders do not receive inappropriate advance
              information that could undermine the integrity of a performance
              test.




Page 8                                                       Details of Findings
RECOMMENDATIONS   We recommend that the Manager, Y-12 Site Office, and the
                  Manager, Oak Ridge Operations Office:

                  1. Evaluate the information disclosed by our review and take
                     appropriate action to ensure the integrity and realism of future
                     performance tests.

                  2. Evaluate whether the information disclosed by our review
                     impacts any previous analysis of the efficacy of the site’s
                     protective force, and take appropriate corrective actions.

                  3. Consider the information disclosed by our review when
                     evaluating Wackenhut’s performance, and take appropriate
                     action with respect to determining award fee.

                  4. Evaluate whether it is appropriate for the same contractor to be
                     responsible for both planning and participating as a protective
                     force in protective force performance tests. Further, identify
                     and implement additional safeguards to ensure that responders
                     do not receive inappropriate advance information that could
                     undermine the integrity of a performance test.

                  We recommend that the Director, Office of Independent Oversight
                  and Performance Assurance:

                  5. Review the information provided in this report, and take action
                     to ensure the integrity and realism of future performance tests
                     at Y-12 and other Department facilities.

MANAGEMENT        NNSA concurred with our findings and recommendations and
COMMENTS          provided a series of corrective actions that either had been initiated
                  or were planned as a result of direction from the NNSA
                  Administrator and the Y-12 Site Office Manager. NNSA’s
                  comments, which are provided in their entirety at Appendix B to
                  this report, also represent the position of the Oak Ridge Operations
                  Office. The Office of Independent Oversight and Performance
                  Assurance concurred with our recommendation to that Office.
                  Comments from that Office are also appended to this report.

INSPECTOR         We found management’s comments to be responsive to our
COMMENTS          recommendations.




Page 9                                   Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We reviewed certain aspects of protective force performance
METHODOLOGY   tests at the Department’s Oak Ridge Complex. The inspection
              fieldwork was conducted primarily from July through August
              2003. We identified and reviewed applicable DOE regulations and
              other key documents applicable to the inspection. We interviewed
              Federal and contractor staff assigned to Department Headquarters
              and field locations in Oak Ridge, Tennessee, and Albuquerque,
              New Mexico. We also interviewed former contractor employees.
              We worked closely with the OIG Office of Investigations and the
              U.S. Attorney’s Office for the Eastern District of Tennessee. We
              reviewed several relevant JCATS computer scenarios. This
              inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 10                                            Scope and Methodology
Appendix B




Page 11      Management Comments
Page 12   Management Comments
Page 13   Management Comments
[Due to Privacy Act considerations, information that was provided herein that was responsive to
recommendations contained in the separate report referenced on page 4 of this report are only
being included in that report.]




Page 14                                                             Management Comments
Page 15   Management Comments
Page 16   Management Comments
Page 17   Management Comments
                                                                    IG Report No. DOE/IG-0636

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
